     04/21/03          07:45 FAX 301 903 4656               CAPITAL REGION                 -*   FORS FIVEA          I002/004


DOE F 1325 '
   (8-69)
 EFO (07-90)

                                                                                                   Department of Eneray
United States Government

 memorandum
               DATE:        PR17 2003                                         Audit Report No.: OAS-L-03-14

        REPLY TO
         ATTN OF:      IG-34 (A03PT040)

         SUBJECT:      Audit of the Office of Energy Efficiency and Renewable Energy's (EE) Grants, Subsidies,
                       and Cost Sharing Arrangements

                 TO:   Assistant Secretary for Energy Efficiency and Renewable Energy, EE-1
                                                                                                       Office of
                       The purpose of this report is to inform you of the results of our review of the
                       Energy Efficiency and Renewable Energy's (EE) incentive payments and cost-share
                       arrangements. The review was initiated in February 2003, and fieldwork was
                       conducted through April 2003 at Department of Energy (Department) Headquarters.
                       Our methodology is described in the attachment to this report.

                       INTRODUCTION AND OBJECTIVE

                       EE's mission is to enhance energy efficiency and productivity by bringing clean, reliable
                       and affordable energy to the marketplace. This includes funding energy projects at
                       private firms, nonprofit organizations, state and local governments and Native
                       American organizations. EE uses grants, cost-share arrangements and subsidies to
                       encourage the efficient production of energy. The objective of our audit was to
                       determine whether the Department's payments for grants, subsidies and cost-share
                       arrangements were efficient and were satisfying the goals and objectives of the Energy
                       Efficiency and Renewable Energy programs.

                        CONCLUSIONS AND OBSERVATIONS

                        Issues relating to the Department's Energy Efficiency program have been identified in
                        the President's Management Agenda for Fiscal Year 2002, a National Academy of
                        Public Administration Report issued in March of 2000 and a Strategic Program Review
                        completed in March 2002. These issues included but were not limited to the
                                                                                                    Renewable
                        appropriateness of energy incentives and cost sharing programs, such as the
                        Energy Production Incentive, and the reasonableness of EE's balances for uncosted
                         obligations.

                        SAs a result of the above, the program has taken actions on the President's Management
                         Agenda, responded to the National Academy's recommendations, and has reorganized
                         to address the problems identified in the 2002 Strategic Program Review. For example,
                         EE has taken several financial and procurement actions to reduce its uncosted
                                                                                                           EE has
                         obligations that the Strategic Program Review identified as a major problem.
                         identified the reasons for the large dollar value of the uncosted obligations, created a
                         mechanism to track them, and has developed an action plan to address this issue.
04/21/03   07:46 FAX 301    903 4656             CAPITAL REGION                -+ FORS   FIVEA        Q|003/004




                                                      -2-


                                                                                         current
           In light of EE's efforts and the National Academy of Public Administration's
                                                                          discontinue   this audit.
           involvement in monitoring EE corrective actions, we elected to
           At the conclusion of the Academy's assessment, we may evaluate whether additional
           actions are needed.

           Since no recommendations are being made in this report, a formal response is not
           required. We appreciated the cooperation of y   staff throughout the audit.



                                                  Ricke R. Hass, Director
                                                  Science, Energy, Technology,
                                                    and Financial Audits
                                                  Office of Audit Services
                                                  Office of Inspector General

            Attachment

            cc: Team Leader, Audit Liaison, ME-2.1
04/21/03   07:46 FAX 301 903 4656                CAPITAL REGION                   FORS FIVEA              I004/004



                                                                                         Attachment


           METHODOLOGY

           To accomplish the audit objective, we:

                   *Reviewed the President's Management Agenda for Fiscal Year 2002, the
                    National Academy of Public Administration Report "A Review of Management
                     in the Office of Energy Efficiency and Renewable Energy" issued in March
                     2000 and the EE Strategic Program Review issued in March 2002 to determine
                     the extent of findings and recommendations;

               *     Reviewed EE's strategy to reduce Fiscal Year 2003 uncosted obligations to
                     determine its methodology and appropriateness; and

               * Held discussions and collected data from appropriate Departmental officials to
                 determine the progress and status of their actions to address issues identified in
                 the President's Management Agenda for 2002, the National Academy of Public
                 Administration Report "A Review of Management in the Office of Energy
                 Efficiency and Renewable Energy," issued in March 2000 and the EE Strategic
                 Program Review issued in March 2002.

                   *Reviewed performance measures in accordance with.the Government
                     Performance and Results Act of 1993 to determine whether performance plans
                     and measures existed relative to specific energy efficiency and renewable energy
                     efforts.

            We conducted the audit according to generally accepted Government auditing standards
            for performance audits and included tests for internal controls and compliance with
            laws and regulations to the extent necessary to satisfy the audit objective. Accordingly,
            we assessed the Department's internal controls with regard to EE management's
                                                                                                Because
            response to findings and recommendations of recent reviews of their program.
            our review was limited, it would not necessarily have   disclosed  all internal control
             deficiencies that may have existed at the time of our audit. We did not rely on
             computer generated data, therefore, we did not assess data reliability. Management
             waived the exit conference.
    04/28/03          14:27 FAX 301 903 4656                CAPITAL REGION                -* FORS FIVEA                o006


DOE F 3l7.R
  (a-89)
EFP(07-90)


United States Government                                                                        Department of Energy


memorandum
              DATE:     APR 2 5 2003
       REPLY TO
       ATTN OF:       IG-34 (A03PT040)
       SUBJECT:       Final Report Package for Audit of the "Office of Energy Efficiency and Renewable Energy's
                      (EE) Grants, Subsidies, and Cost Sharing Arrangements" Audit Report Number: OAS-L-03-14
                TO:   Frederick D. Doggett, Deputy Assistant Inspector General for Audit Services


                      Attached is the required final report package on the subject audit. The pertinent details are:

                          1. Actual Staff days:      77

                             Actual Elapsed days: 51

                          2. Names of OIG and/or contractor audit staff:

                              Assistant Director:    George W. Collard
                              Team Leader:           Robert W. Lewandowski
                              Auditor-in-Charge:     George G. Daugherty
                              Audit Staff:           Eileen E. Metz

                          3. Coordination with Investigations and Inspections:

                              Investigations:        Yvette Milam - April 14, 2003

                              Inspections:           Henry Minner - April 14, 2003



                                                             Rickey . Hass, Director
                                                             Science, Energy, Technology,
                                                               and Financial Audits
                                                             Office of Audit Services
                                                             Office of Inspector General

                       Attachments:
                       1. Final Report (3)
                       2. Monetary Impact Report
                       3. Audit Project Summary Report
                       4. Audit Database Information Sheet
04/28/03      14:27 FAX 301 903 4656                            CAPITAL REGION                          - FORS FIVEA               IA007




                                                                                                                     Attachment 2

                                  MONETARY IMPACT OF REPORT NO.: OAS-L-03-14

                                                                                                  Subsidies.
         1. Title of Audit:      "Office of Energy Efficiency and Renewable Energy's (EE) Grants.
                                 Cost Sharing Arrangements"

         2. Division:            Science. Energy. Technology, and Financial Audits

          3. Project No.:        A03PT040

          4. Type of Audit:

                   Financial:                                                  Performance:        X
                      Financial Statement                                        Economy and Efficiency                X
                      Financial Related                                          Program Results
                   Other (specify type):

    5.
                                                                                                                      MGT.         POTENTIAL
                                                                                          QUESTIONED COSTS           POSITION       BUDGET
               FINDING                      BETTER USED
                                                                                                                                    IMPACT
                                                       Recurrin
                                    (C)         (D)       (B)          (F)          (G)           (H)         (1        (J)           (K)
    (A)               (B)                                                                                    Total   C=Concur        Y=Yes
                      Title        One      Amount       No.           Total     Questioned   Unsupported
                                   Time      Per         Yrs.         Amount      Portion       Portion              N=Noncon        N=No
                                                Year              _                                                  U=Undec


                                                          N/A          N/A          NIA           N/A        N/A       N/A            N/A
            None                    N/A         N/A




     TOTALS-ALL FINDINGS



     6. Remarks: There is no current monetary impact or potential future savings.

     7. Contractor:                         _                         10. Approvals:                         z                ir
     8. Contract No.:                                                        Division Director & Date
     9. Task Order No.:                                                      Technical Advisor & Date
   04/28/03             14:28 FAX 301 903 4656                                     CAPITAL REGION                    -   FORS FIVEA         ]008

                                                        Office of the Inspector General (OIG)
                                                    Audit Project Office                        Summary          (APS)
                                                                                                                                           Page 1

Report run on:                           April 22, 2003 1:25 PM


   Audit#: A03PT040                      Ofc:       PTA       Title: EE GRANTS SUBSIDIES & COST SHARING AGREEMENTS

               ..
               1    .    .,"   " ,.3"'-.:q5.wj:
                               '-        "..    ,l           --..              3     3               ]
                                                                                                     ..                    3

                                                        --------------                Planned ----------------                    Actual
                                                            Profile                End of Survey         Revised
                                                                                     25-FEB-03            25-FEB-03            25-FEB-03
   Entrance Conference:                                   01-OCT-02
                                                                                                          25-APR-03
   Survey Completed:
   Field Work Complete:
   Draft Report Issued:                                                              25-JUN-03


                                                                                                          25-AUG-03            17-APR-03   (R   )
   Completed with Report:                                   30-SEP-03

   ---------        Elapsed Days                                    364                                            181              51
                                                                                                                                    77
    -----------           Staff Days:                                 0                        0

    Date Suspended:                                                             Date Terminated:
    Date Reactivated:                                                           Date Cancelled:
                                0 (                                            )Report Number:   OAS-L-03-14
    DaysSuspended(Cur/Tot):
                                                                                SUBSIDIES,
    Rpt Title:  OFFICE OF ENERGY EFFICIENCY AND RENEWABLE ENERGY'S (EE) GRANTS,
                AND COST SHARING ARRANGEMENTS




    Aud Type:                    Not Found
                                 OTHER                                                        AD:          376    LEWANDOWSKI
    Category: OTH
    DOE-Org:                     Not Found                                                    AIC:         500    DAUGHERTY
    Maj Iss:  009            CONTRACT/GRANT ADMIN                                             HDQ-Mon:     421    SCHULMAN
     Site:               MRA MULTI-REGION AUDIT                                               ARM:         459    COLLARD



            Task No:
               Task Order Dt:                                                      CO Tech.   Rep:
               Orig Auth Hrs:                                                      Orig Auth Costs:
               Current Auth:                                                       Current Auth Cost:
               Tot Actl IPR Hr:                                                    Tot Actl Cost:




                               BARWATT,         T                          0.9           19-APR-03
                               LEWANDOWSKI,             R                  6.5           19-APR-03
                               METZ,     E                                31.7           19-APR-03
                               DAUGHERTY,           G                     37.9           19-APR-03

                                Total:                                    77.0



                                                                          77
04/28/03     14:36 FAX 301 903 4656            CAPITAL REGION               - FORS FIVEA           @009/009




                                                                                         Attachment 4


                            AUDIT DATABASE INFORMATION SHEET


      1. Project No.: A03PT040
                                                                            (EE) Grants, Subsidies,
      2. Title of Audit: Office of Energy Efficiency and Renewable Energy's
         and Cost Sharing Arrangements

      3. Report No./Date: OAS-L-03-14/April 17,2003

      4. Management Challenge Area: R&D Investment and Energy Supply

      5. Presidential Mgmt Initiative: Better R&D Investment Criteria
                                                                        for the Future
       6. Secretary Priority/Initiative: Identify New Sources of Energy

       7. Program Code: EE

       8. Location/Sites: MRA/HER and SEI
                                                                            of Public Administration's
       9. Finding Summary: Due to EE's efforts and the National Academy
                                                                                             this audit.
          current involvement in monitoring EE corrective actions, we elected to discontinue
                                                                           whether  additional actions
          At the conclusion of the Academy's assessment, we may evaluate
              are needed.

           10. Keywords:    National Academy of Public Administration Report
                            energy incentives and cost sharing programs
                            Renewable Energy Production
                            uncosted obligations
                            EE
                            Strategic Program Review
